N,C) m6900
IN THE
SUPREME COURT OF THE UNITED STATES

JOHN REINTS,
Petitioner
v.
JANET SAYLER; PENNINGTON COUTY, SOUTH DAKOTA;
RON BUSKERD; NANCY TRAUTMAN; LYNDELL PETERSON;
DEB HADCOCK; GEORGE FEREBEE; MARK DiSANTO
& LLOYD LaCROIX,

FILED

Respondents

JAN 1 1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE STATE OF SOUTH DAKOTA

PETITION FOR A WRIT OF CERTIORARI

JOHN REINTS
Petitioner pro se
234 South Canyon Road
Rapid City, SD 57702
213-269-1949
jorntz@gmail.eom

QUESTIONS PRESENTED

Are the Fourteenth Amendment procedural due process rights of a recipient of
the need-based, statutory economic benefit at issue here violated when he or she is
first granted and then suddenly denied that benefit without pre-deprivation notice and
without opportunity for pre-deprivation hearing?

Is the recipient of a need-based, statutory economic benefit deprived of
Fourteenth Amendment due process when a state's courts, including in turn the state's
Supreme Court, accept jurisdiction but refuse to acknowledge, take up or rule upon
the recipient's timely, well-pleaded, clearly presented claim that his: or her federal
rights were violated when said benefit was suddenly withdrawn without opportunity
for pre-deprivation hearing?

Are the Goldberg v. Kelly requirements for pre-deprivation notice and hearing
"clearly established law" in the fact situation presented here?

Is a county's repetition for five consecutive years of failure and refusal to
provide pre-deprivation notice and hearing to the recipient of a statutory, need-based
economic benefit, before that benefit is suddenly withdrawn, sufficient to establish
that the county maintains the custom, regular practice and/or policy of such failure
and refusal?

LIST OF PARTIES
All parties appear on the caption of the case on the cover page.

RELATED CASES
Reints v. Sayler, et al, No. 51Civ15-001711, South Dakota 7th Circuit Court.
Judgement entered October 28, 2019.
Reints v. Sayler, et al, No. 29118; South Dakota Supreme Court. Judgement entered
August 31, 2019. Order Denying Rehearing entered October 14, 2020.

TABLE OF CONTENTS
Page
Opinions Below

1

Jurisdiction

2

Constitutional and Statutory Provisions Involved

2

Statement of the Case

3

Reasons for Granting the Writ

8

The Opinion Below Upends This Court's Long-Standing Precedent
and Directly Conflicts with Goldberg v. Kelly, Board of Regents v. Roth
and Vitek v. Jones.

8

Significant numbers of similarly-situated, elderly South Dakotans
are adversely affected.

11

This Court Should Exercise Its Duty To Supervise the Lower Courts
in Their Adjudication of Federally-Protected Individual Rights Especially
When, As In This Case, There Is Kafkaesque Denial of Due Process.

13

Conclusion

16

INDEX TO APPENDICES
Appendix A: South Dakota Supreme Court Opinion, No. 29118

App. p. 1

Appendix B: 7th Circuit Court Judgment, No. 5lcivl5-001711 (with
(incorporated Findings of Fact & Conclusions of Law)

App. p. 2

Appendix C: South Dakota Supreme Court Denial of Petition for Rehearing ... App. p. 21
Appendix D: 7th Circuit Court preliminary Order, with authorities

App. p. 22

Appendix C: Reints' Appellant's Brief to the South Dakota Supreme Court .... App. p. 30

iii

TABLE OF AUTHORITIES CITED

CONSTITUTIONAL PROVISIONS

PAGE NUMBER
Amendment XIV , Constitution of the United States

2

Article IV, §4, Constitution of South Dakota

4

STATUTES & RULES
SDCL 7-1-11

3

SDCL 10-11-10

3

SDCL 10-11-12

3

SDCL 43-31-32

2, 3, 4, 5, 9, 10

CASES
PAGE NUMBER
Bailey v. Farmer's State Bank of Sisseton
35 S.D. 122, 150 N.W. 94, 944 (1915)

5

Board of Regents v. Roth
408 U.S. 564 (1972)

8

Brown v. Daniels
10

290 Fed. Appx. 467, 471 (3d Cir. 2008)
iv

CASES (continued)

Cleveland Board of Education v. Loudermill
470 U.S. 532, 541

10

Davis v. Wechsler
263 U.S. 22, 24-25 (1923)

14

Goldberg v. Kelly
397 U.S. 254 (1970)

3, 8, 9, 10,11,
12, 13, 15

Gross v. Gross
491 N.W. 2D 751, 753 (S.D. 1992)

5

Harmelin v. Michigan,
501 U. S. 957, (1991)

14

James Daniel Good Real Prop.
510 U.S. 43 (1993)

14

Mathews v. Eldridge
424 U.S. 319 (1976)

13

Ramsey v. Lake City
70 S.D. 61, 62, 14 N.W.2d 125, 126 (1944)

4

Reints v. Pennington Co., et al.
2015 S.D. 74, N.W. 2D 466 (2015)

4, 9

Vitek v. Jones
445 U.S. 480, 491 (1980)

8, 10,14

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW
The opinion of the highest state court to review the merits, the South Dakota
Supreme Court, was entered on August 31, 2020. It is scheduled for publication but is
not yet reported. It appears in the appendix of this petition at Appendix ("App.") p. 1-2.

The South Dakota Supreme Court order denying petition for rehearing was entered
on October 14, 2020. It is at App. p. 21.

The Seventh Circuit Court's Findings of Fact and Conclusions of Law were
adopted and affirmed without change in the state Supreme Court opinion. The Circuit
Court order denying all of Mr. Reints' claims and incorporating said Findings of Fact
and Conclusions of Law was entered on October 29, 2020 and is at App. pp 3-4. The
Findings of Fact and Conclusions of Law included in the final orders of both the Circuit
Court and the South Dakota Supreme Court are at App. pp. 5-20.

1

JURISDICTION
The South Dakota Supreme Court entered judgment on August 31, 2020, and
denied rehearing on October 14, 2020. 28 U. S. C. § 1257(a) confers jurisdiction.

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED

Constitution of the United States, Amendrnent XIV
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.

South Dakota Statutes
SDCL §43-31-32
Any person making an application under the provisions of §§43-31-31 to 43-31-41,
inclusive, is entitled to a prohibition on the collection of real property taxes upon the
person's single-family dwelling if the following conditions are met:
Has owned a single-family dwelling, in fee or by contract to purchase, for at least
three years, or has been a resident of South Dakota for at least five years;
Has resided for at least eight months of the previous calendar year in the singlefamily dwelling;
Has established a base year;
Has a household income as defined in §10-6A-1 of less than sixteen thousand
dollars if the household is a single-member household; and
Has a household income as defined in §10-6A-1 of less than twenty thousand
dollars if the household is a multiple-member household.

2

•

STATEMENT OF THE CASE

In each of the years 2015 through 2019, Petitioner John Reints (Reints) --- now a 76year-old retiree --- applied for and was granted South Dakota's "prohibition on the collection
of real property taxes upon [his] single-family dwelling," pursuant to South Dakota Codified
Law (SDCL) 43-31-32. In each of those years, after the county treasurer who received
Reints' applications approved them, she collected property taxes on Reints' home anyway.
Reints never received pre-tax collection notice of the county's intention to deprive him of the
tax relief benefit it had granted, nor was he ever provided opportunity for pre-deprivation
hearing. The treasurer ignored timely, repeated, written demands for pre-deprivation
hearing she received year after year, in some of which Reints called to the treasurer's
attention the requirements established by Goldberg v. Kelly, 397 U.S. 254 (1970).
The treasurer, who by statute is "the tax collector" for the county (SDCL 7-11-1),
accomplished the tax collections by falsely reporting to the agent of the mortgagor on
Reints' home that the taxes in question were currently due, rather than causing the tax lists to
be corrected to reflect that, upon approval of Reints' applications, these taxes were deferred
by operation of SDCL 43-31-32 and could not be collected. Correction of the tax lists is
mandatory pursuant to SDCL 10-11-10 and the method of correction, including instruction
to line through the original amounts and enter revised amounts with red ink, is spelled out by
SDCL 10-11-12. The treasurer admitted at trial that she took no step to cause correction of
the tax lists. When the mortgagor's agent received from the treasurer the computerized data
file based on the county's uncorrected tax list, this agent automatically paid from mortgage

3

escrow --- escrow that Reints funded in order to avoid foreclosure --- the full amounts
falsely indicated as currently due on Reints' home. Reints repeatedly demanded in writing
that the treasurer promptly correct the tax list and stop this means of collection. The
treasurer and the county commissioners who received copies of Reints' letters to the
treasurer ignored these written demands in every case.
Reints' annual income during each of the five years was less than $9500, all derived
from Social Security and SSI. To qualify for the prohibition on collection, a single-person
household such as that of Reints must have an annual income less than $16,000. SDCL 4331-32(4). According to the South Dakota Supreme Court in a previous case brought by
Reints, "[A] prohibition, once granted, restrains a county from collecting any real
property taxes on the applicant's single-family dwelling." ¶20, Reints v. Pennington Co.,
et al, 2015 S.D. 74, N.W. 2D 466 (2015). (Reints I). "The prohibition offered by SDCL
chapter 43-31 is intended to provide tax relief for low-income applicants who have
reached the age of 70 by deferring property taxes on their actual dwellings." Ibid at ¶30.
The prohibition on collection is an element of a statutory scheme which implements the
mandate of Article )0(I, § 4, of the South Dakota Constitution, namely, to "provide for
the family a home in which it may have shelter from and a protection against the claims
of creditors or its own improvidence and where it may live and be protected." Ibid at ¶7,
quoting Ramsey v. Lake City., 70 S.D. 61, 62, 14 N.W.2d 125, 126 (1944).
Prior to the South Dakota Supreme Court's memorandum decision in the instant
case, it recognized that homestead protection arises "by reason of possession and use and
occupancy as a homestead, under the general statute. The source of title is immaterial."

4

Gross v. Gross, 491 N.W. 2D 751, 753 (S.D. 1992), citing Bailey v. Farmer's State Bank
of Sisseton, 35 S.D. 122, 150 N.W. 94, 944 (1915). If an applicant for the prohibition
on collection has been a resident of South Dakota for five years or more, there is no
requirement that he or she own the home on which taxes may not be collected. SDCL
43-31-32(1). Reints has lived alone in his home, a 68-year old frame structure of 864
square feet; since 2000. As he testified at trial, Reints has struggled to avoid foreclosure
and homelessness and experienced real privation because this tax relief was denied him.
His trial testimony concerning the hardships caused and the precariousness of his ability
to remain in his home was not disputed.
In December, 2015, Reints filed his initial petition and complaint in this matter in
South Dakota Seventh Circuit Court, seeking mandamus relief, equitable relief and damages
pursuant to 42 U.S.0 1983 for violations of his Fourteenth Amendment due process rights.
Litigation continued for nearly five years during each of which the county first granted
Reints the prohibition on collection and then collected property taxes on his home. Five
months after trial on March 18, 2019, the Circuit Court denied all of Reints claims. It held,
in effect, that the county had not collected taxes on Reints' home but only accepted them;
that no federal or state law right was violated when it did so; that the county had no liability
because it had no custom or regular practice which violated any of Reints' Constitutional
rights; and that the treasurer and the county commissioners enjoyed qualified immunity
because there was no violation of Reints' rights and no clearly established law prohibiting
acceptance of property taxes.
On August 31, 2019, the South Dakota Supreme Court affirmed the Circuit Court's
denial of all of Reints' claims and adopted the Circuit Court's Findings of Fact and
5

Conclusions of Law in its memorandum opinion (App. pp 1-2) as the sole basis for its
affirmance. The state Supreme Court ruled that no questions of law were involved in Reints'
appeal. "[T]he issues on appeal were factual and there clearly is sufficient evidence to
support the findings of fact and conclusions of.law below." App. p. 2.
In its Findings of Fact and Conclusions of Law, the Circuit Court did not acknowledge,
take up or rule upon Reints' specific claim that he was repeatedly denied pre-deprivation
hearings in violation of his due process rights, nor did it acknowledge that Reints had timely
demanded such hearings, in writing. It did rule that Reints had no right to pre-deprivation
notice before any tax collection "because Reints was aware that WFHM [Wells Fargo Home
Mortgage, the mortgagor's agent,] paid the real property taxes twice annually before the
statutory deadlines for doing so." Conclusions of Law B.(1.)(c.), App. p. 17.
The Circuit Court held that, if Reints acquired a property interest in the tax relief
benefit, then that property interest was "subordinate to, and subject to, the terms of a
mortgage agreement entered into by a co-owner of the property before her death."
Conclusions of Law B.(1.)(b.), App. p. 16. The Circuit Court acknowledged that the
recipient of SDCL 43-31-32 tax relief need not own the home on which taxes may not be
collected, but held that taxes could continue to be collected on Reints home because,
"[N]either does South Dakota law indicate that a co-owner of the property who does not
qualify for the tax relief is entitled to the same tax deferral." Conclusions of Law II(5),
App. p. 18. As to state law, these findings reversed, without analysis or explanation, the
same Circuit Court's earlier findings of November 23, 2016, (App. pp. 22-29). The findings
of November 23 were based on precedent in the South Dakota Supreme Court and the
Eighth Circuit.

6

Here, while Mr. Reints is entitled to a prohibition upon collection of
real estate taxes, his position is that the County continues to list the property
as having taxes due, and as such, the Estate and/or the mortgage company are
making those payments. To the extent such are paid by Mr. Reints' mortgage
company, they are paid from escrow and charged to Mr. Reints. Defendants
argue statutory changes to the chapter, specifically SDCL 41-31-[41] allows a
third party to make payments like these. This argument overlooks the reality
facing Mr. Reints: his tax status, as well as his escrow, are impacted by the
County listing the property as having taxes due. The import of the collection
prohibition statute (SDCL 43-3[1]-32) is to proscribe just such collection.
(Ftnote 9: "See Reints,2015 SD 74, ¶20")
App. p. 27.
In the same preliminary ruling of November 23, 2016, the Circuit Court, citing South
Dakota Supreme Court and Eighth Circuit authorities on homestead law, rejected
Defendants' argument that Reints should be denied the tax relief benefit because the coowner of the property, the un-probated estate of Reints' late mother, had not applied for the
prohibition on tax collection.
"Mr. Reints applied for the collection prohibition, while the joint property
owners did not. Mr. Reints was granted approval. There is no requirement for
all joint property owners to apply for the collection prohibition under the
statute. Accordingly, this Court finds the entire homestead includes all
property owners, including the Estate of Anne Reints, and the collection
prohibition applies to the homestead."
App. p. 27.
The Circuit Court's final Conclusions of Law, as adopted by the South Dakota Supreme
Court, conflict with and would reverse, without analysis or reason given, all of the precedent
the Circuit Court relied upon in its November 23, 2016, findings. For this authority and
precedent, see App. pp. 26-27.

7

REASONS FOR GRANTING THE PETITION

I.

The Opinion Below Upends This Court's Long-Standing Precedent and
Directly Conflicts with Goldberg v. Kelly, Board of Regents v. Roth and Vitek v.
Jones.

The state Supreme Court's holding that there were no issues of law on appeal is
breathtaking. It contradicts unmistakable written pleadings and ignores law rulings in the
Conclusions of Law which it adopts as the basis for denying all of Reints' claims. No fact
issues were involved in Reints' appeal to the South Dakota Supreme Court. There was no
dispute below on any fact Reints alleged and proved. Whether statutory, need-based
benefits are property interests protected by the Fourteenth Amendment is an issue of law,
one that was decided in Goldberg and Board of Regents v. Roth, 408 U.S. 564 (1972).
Property interests, of course, are not created by the Constitution. Rather, they
are created and their dimensions are defined by existing rules or
understandings that stem from an independent source such as state law -rules or understandings that secure certain benefits and that support claims of
entitlement to those benefits.
Ibid at 577
The law issue of how much and what kind of due process is required in cases such as this
was decided in Goldberg v. Kelly. The county and the Circuit Court ignored these
authorities and thereby raised law issues which Reints clearly stated in his Appellant's Brief
(App. pp. 30-69) to the South Dakota Supreme Court.
This Court's holdings in Goldberg and Board of Regents were specific as to what
satisfies Fourteenth Amendment requirements for procedural due process, down to what
contents are required in pre-deprivation notice and what is and is not required at a pre8

deprivation hearing. There is little left for interpretation. The South Dakota Supreme Court
chose to ignore the law issues on which Reints appealed and chose to rule as if the important
Constitutional protections involved do not exist.
The South Dakota Supreme Court itself was specific, five years ago in Reints I, as to
the consequences of approval of an application for the prohibition on collection of property
taxes. "Once [such application is] approved" a county is "prohibited from collecting any
real property taxes" on the "actual dwelling" of the beneficiary. (See p. 4 herein). South
Dakota's SDCL 43-31-32 prohibition on collection is self-evidently and by a holding of the
state Supreme Court a need-based benefit. In Reints I, the South Dakota Supreme Court
ruled, "[T]he County's interpretation has the potential to frustrate the Legislature's intent
by divorcing the grant of a prohibition from the applicant's concurrent economic need."
(emphasis in original) Reints I, at ¶19. Goldberg held that only a pre-deprivation
evidentiary hearing satisfies the constitutional requirement for procedural due process
when the benefit in question "provides the means to obtain essential food, clothing,
housing, and medical care," since "termination of aid pending resolution of a
controversy over eligibility may deprive an eligible recipient of the very means by which
to live while he waits. Since he lacks independent resources, his situation becomes
immediately desperate." Goldberg, at 263. In Board of Regents, this Court broadened
Goldberg, holding that "a legitimate claim of entitlement to" a need-based benefit was
sufficient to establish the federal due process requirement for pre-deprivation notice and
hearing. Ibid, at 577.

9

By adopting the Circuit Court's finding that, if Reints had a property interest in the
tax deferral benefit, then such interest was subordinate to a mortgage obligation incurred
by someone else, the state Supreme Court joined the Circuit Court in conflating Reints'
property right by title to half-interest in the homestead property with Reints'
Constitutionally-protected property interest in the SDCL 43-31-32 tax relief benefit.
Reints pointed out this confusion in his Appellant's Brief (App. p. 62), but the state
Supreme Court ignored it.
This Court has clearly rejected subordination of federal due process requirements
to provisions of state law, whether by confusion or intent. "[M]inimum [procedural]
requirements [are] a matter of federal law, they are not diminished by the fact that the
State may have specified its own procedures that it may deem adequate for determining
the preconditions to adverse action." Vitek v. Jones, 445 U.S. 480, 491 (1980). "It is well
settled that state law does not define the parameters of due process for purposes of the
Fourteenth Amendment." Brown v. Daniels, 290 Fed. Appx. 467, 471 (3d Cir. 2008),
referencing Cleveland Board of Education v. Loudermill, 470 U.S. 532, 541.
This Court should grant the Petition and intervene to prevent destruction without
due process of Reints' and similarly-situated others' state-created property interest and to
prevent confusion as to governing authority in South Dakota's courts.

10

II. Significant numbers of similarly-situated, elderly South Dakotans are adversely
affected.

Those who qualify for South Dakota's homestead tax relief benefit are in most
cases subject to economic duress, especially if they are paying off a mortgage. Reints'
situation is typical. Even with help from SNAP benefits and Energy Assistance, it is and
has been a full-time struggle for him to meet basic living expenses on the roughly $150
per month which remains after mortgage payment and utilities. As Reints testified at
trial, receipt of the tax relief benefit would have added between $100 and $135 to his
effective monthly income over the five-year period and meaningfully relieved chronic
insecurity. For example --- as Reints testified at trial --- this addition to his monthly
income would have made it possible to restore running water to his home, after a
plumbing failure resulted in a huge water bill he could not pay. Reints was fortunate
during the period 2015 to 2020 to avoid any greater emergency involving substantial
expense, since any such would almost certainly have caused him to lose his home. Only
by unusual good fortune was he able to find an attorney to represent him before the
Circuit and state Supreme Courts in the hope and expectation that he, the attorney, might
be compensated pursuant to 42 U.S.C. 1988. Further, Reints was able to survive
because, unlike many of his aged peers, he remained able to use a bicycle for some
transportation and to perform home maintenance and repair his 20-year-old auto himself.
As noted by the Goldberg Court, when a need-based benefit is denied the "need to
concentrate upon finding the means for daily subsistence, in turn, adversely affects [the

11

recipient's] ability to seek redress." Goldberg at 264. This Court should grant the
Petition and intervene, in part because the large majority of elderly who are similarly
affected are highly vulnerable and typically without the means to seek redress in the
courts.
Enforcement upon South Dakota's county treasurers of the requirement for predeprivation hearing preceded by "timely and adequate notice detailing the reasons for a
proposed termination" (Goldberg, at 264) and conducted before an impartial decisionmaker who has not "participated in making the determination under review" (Goldberg,
at 271), can effectively prevent the routine, arbitrary withholding and cancelation of this
need-based, state law benefit which now occurs.
The South Dakota Legislature has made county treasurers responsible for judging
applications for the tax relief benefit and for not collecting deferred property taxes, but it
has not provided any detailed procedure for treasurers to follow. In these circumstances,
it is apparently easy for a South Dakota county treasurer to feel that he or she is doing
nothing wrong in "merely accepting" property taxes as he or she has always done.
Enforcement of the well-settled Constitutional requirement for pre-deprivation hearing
and notice specifying reasons for proposed withdrawal of this benefit can confront these
powerful officials with the reality that there must be a reason if the benefit is to be
denied. In the instant case, both county officials and the South Dakota courts have ruled,
in effect, that state laws governing normal collection of property taxes supersede and
nullify clearly established federal due process rights and cancel out the state-law-based
prohibition on collection, as well.

12

Reints and the similarly-situated elderly have a vital interest at stake. The tax relief
benefit in question often determines whether an aged, low-income retiree or subsistencewage employee can remain in his or her own home, preserve a treasured independence
and participate fully in the life of the community. The Goldberg court listed these as
among the individual interests which require a high degree of due process protection.
See Goldberg at 265.

III. This Court Should Exercise Its Duty To Supervise the Lower Courts in Their
Adjudication of Federally-Protected Individual Rights Especially When, As In
This Case, There Is Kafkaesque Denial of Due Process.

At no point during five years of litigation did the Circuit Court or the South Dakota
Supreme Court acknowledge, consider, analyze or rule upon Reints' clearly and timely pled
claim that he was being denied the need-based, tax relief benefit without pre-deprivation
hearing. Such omission undercuts respect for the courts and belief in the rule of law.
This claim was not held to be frivolous. It was not dismissed at any stage of litigation
for any reason. There was no finding that the claim was inadequately or implausibly pled.
The facts supporting this claim remained undisputed throughout and their adequacy to
support the claim was never challenged. There was no finding that the statutory benefit in
question was not based on urgent economic need, and the evidence presented that the benefit
is based on such need is clear and was undisputed. There was no finding that the claim was
not raised before the Circuit Court. There was no application of Mathews v. Eldridge
balancing to conclude that due process requirements could be satisfied by postdeprivation review. The law supporting this claim was clearly established by this Court
13

nearly 50 years ago and remains unchanged to this day with no significant conflict among
the Circuits, undoubtedly because of the clarity and specificity of Goldberg.
There has been refusal by South Dakota courts to address this claim, apparently from
erroneous deference to state law. Such apparent refusal cries out for this Court to act upon
its duty to supervise the lower courts in their adjudication of federally-protected, individual
rights.
This Court has cautioned against relaxing due process protection where the pecuniary
interests of a government entity are involved. In James Daniel Good Real Prop., 510 U.S.
43 (1993), this Court rejected the government's attempt to sidestep a pre-deprivation
hearing requirement in the case of civil seizure of a house not occupied by its owner --- a
case where denial of pre-deprivation process had less drastic consequences than here.
The right to pre-deprivation hearing was held to be "of particular importance ... where
the Government has a direct pecuniary interest in the outcome of the proceeding." (Ibid,
at 55-56). The principal was emphasized by Justice Scalia in Harmelin v. Michigan, 501
U. S. 957, (1991): "[I]t makes sense to scrutinize governmental action more closely
when the State stands to benefit." Ibid at 979. The South Dakota Supreme Court has
done the opposite in this case, which involves deferred collection of taxes.
In historical cases, this Court consistently reversed where state law was applied to
stifle a federal claim or to evade vindication of federal rights, as in Davis v. Wechsler, 263
U.S. 22, 24-25 (1923): "Whatever springes the state may set for those who are endeavoring
to assert rights that the state confers, the assertion of federal rights, when plainly and
reasonably made, is not to be defeated under the name of local practice." Vitek applies this
in the context of due process rights. The South Dakota Supreme Court's refusal to take up
14

Reints' correctly and clearly pled due process claim undermines the long-standing principal
as well as the specific holdings of this Court.
The Circuit Court and state Supreme Court refusals to take up and rule upon Reints'
procedural due process claim resulted in an erroneous finding of qualified immunity. The
Conclusions of Law adopted by the South Dakota Supreme Court ignore Reints' actual
allegations and hold, based on nothing in the record, that Reints alleged only that
Respondents "accept[ed] real property taxes from WFHM on behalf of the estate of Anne
Reints pursuant to the terms of [a] mortgage...". Recitation of of this phrase is substituted
throughout the Conclusions of Law for fact allegations Reints pled and proved.
Defendants sued in their individual capacities are immune from suit under the
principals of qualified immunity because there was no clearly established law
which would have put a reasonable official on notice that the acceptance of
real property taxes from WFHM on behalf of the estate of Anne Reints •
pursuant to the terms of that mortgage would violate John Reints' federallyprotected constitutional or statutory rights.
B(1)(a), Conclusions of Law, App. p. 16

The state Supreme Court similarly held, while ignoring what Reints alleged and
proved at trial, that the county had no liability.
Because none of the individually-named Defendants took any action which
violated Reints' procedural due process rights, no unconstitutional Pennington
County custom or policy motivated any of the individually-named
Defendants to violate Reints' federally-protected constitutional or statutory
rights. There is no legal basis for liability against Pennington County.
B(2)(a), Conclusions of Law, App. p. 17.
Reints failed to produce any evidence of any unconstitutional Pennington
County custom or policy. There is no legal basis for liability against
Pennington County for any alleged violation of Reints' federally-proteccted
statutory or constitutional rights.
B(2)(b), Conclusions of Law, App. p. 17.
15

Reints clearly alleged and proved that he was never afforded pre-deprivation hearings.
The Circuit and the state Supreme Courts systematically omit from consideration this
proven, procedural due process claim and --- on the sole basis of their omission --- find that
none of Reints' rights were violated. Respondents did not dispute at trial and have never
disputed that they maintained for a five year period the regular practice of never responding
to Reints' demands for pre-deprivation hearing and never affording pre-deprivation notice
and hearing.
This is a case where a clearly-established Fourteenth Amendment right was
"disappeared." It was not disputed that Reints had "a legitimate claim of entitlement to"
and was granted the statutory economic benefit. Rather, the county administered laws and
rules governing typical property tax collection as if the prohibition on these collections was
not there. The state courts, including the state's highest court, then refused to take up and
rule upon Reints' claim of deprivation of the benefit without constitutionally-required due
process. The constitutional protection at issue is meaningless if it exists only on paper. This
case presents this Court with the question, "May a county and state use these means to
effectively erase a federally-protected due process right and a federally-protected property
interest?"

CONCLUSION
For all of the above-stated reasons, the petition for a writ of certiorari should be
granted.

16

Dated this 11th day of January, 2021
Respectfully submitted,

Jo
eints
Petitioner pro e
234 South C • nyon Road
, South Dakota
(213)-269-1949
jomtz@gmail.com

